Press Releases Louisiana - 03/11/2010 -  Former Orleans Parish School Board President Sentenced to 18 Months in Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Attorney's Office
Eastern District of Louisiana
500 Poydras St
Suite 210-B
New Orleans, Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
FORMER ORLEANS PARISH SCHOOL BOARD PRESIDENT SENTENCED TO 18 MONTHS IN FEDERAL PRISON
March 11, 2010
ELLENESE BROOKS-SIMMS, age 71, a resident of New Orleans, was sentenced in federal court today by U. S. District Judge Martin L. C. Feldman to eighteen (18) months in federal prison for a federal felony involving fraud and kickbacks in the Orleans Parish school system, announced U. S. Attorney Jim Letten today. In addition, the defendant was ordered serve three (3) years supervised release during which time she will be under federal supervision and risks additional imprisonment should she violate any terms of the release.
The sentence of eighteen (18) months handled down today by Judge Feldman was the result of the Court's acknowledgment of a specific request by the Government for a lower sentence than normally would have been recommended by the federal sentencing guidelines. Specifically, while the sentencing guidelines would have recommended a sentence between 70 and 87 months, BROOKS-SIMMS faced an actual maximum prison term of 60 months provided for by law as a result of the conspiracy charge. Specifically outlining the Government's description of defendant BROOKS-SIMMS' extraordinary cooperation -- including immediate acknowledgment, acceptance of responsibility; assistance; the undercover recording of criminal conversations; testimony before the grand jury; and critical testimony at trial under direct and cross-examination directly resulting in Mose Jefferson's conviction and subsequent prison sentence -- the Government requested that the Court hand down a sentence of 18 months.
According to court documents, on June 20, 2007, BROOKS-SIMMS pled guilty to conspiracy to commit federal program fraud. She admitted that from 2001 thru 2004, while an elected member of the Orleans Parish School Board, she secretly conspired with Mose Jefferson, a local businessman, to approve the purchase of an educational software program for the Orleans Parish School System. Jefferson received over $900,000 of Orleans Parish School Board money as his sales commission for selling the software program to the school board. In exchange for her assistance in promoting and approving the software program, BROOKS-SIMMS received approximately $140,000 as a bribe/reward from the Jefferson. Both BROOKS-SIMMS and the Jefferson funneled these payoffs through several bank accounts to disguise their illegality. On August 21, 2009, Jefferson was convicted by a federal jury after a two week trial and has been sentenced to serve ten (10) years in federal prison.
Speaking to today's sentence, U. S. Attorney Jim Letten stated:
We hope that todays sentence, in which the Government recognized the value of timely, truthful and full cooperation and assistance by the defendant, sends an unambiguous and powerful recommendation to all individuals who have violated the law, that while criminal conduct will be dealt with severely under federal law, acceptance of responsibility and truthful assistance will be appropriately recognized.
This case was investigated by the Federal Bureau of Investigation along, the Internal Revenue Service, Criminal Investigation Division and the Department of Education, Office of Inspector General. The prosecution has been handled by Senior Litigation Counsel Salvador Perricone and Assistant U. S. Attorneys Richard Pickens and Michael Simpson.
Top
Printable view
Last Modified: 03/17/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov